BECKER GALLAGHER
Briefs

and

DoNNA
JULIE

Records

CERTIFICATE OF SERVICE
I, Donna J. Wolf, hereby certify that 1 unbound and
40 copies of the foregoing Petition for Writ of
Certiorari in Ryan Begay u. State of New Mexico, were
sent via Three Day Service to the U.S. Supreme Court,
and 3 copies were sent via Three Day Service and email to the following parties listed below, this 25th day
of June, 2019:
Scott M. Davidson
Counsel of Record
The Law Office of Scott M. Davidson, Ph.D., Esq.
1011 Lomas Boulevard NW
Albuquerque, New Mexico 87102
(505) 255-9084
scott@justappeals.net
Counsel for Petitioner
M. Anne Kelly, Esq.
Office of the Attorney General
Criminal Appeals Division
111 Lomas Boulevard NW #300
Albuquerque, New Mexico 87102-2368
(505) 717-3500
akelly@nmag.gov
Counsel for Respondent

BECKER GALLAGHER LEGAL PUBLISHING INCORPORATED

(800) 890.5001

www.beckergallagher.com

8790 Governor's Hill Drive
Suite 102
Cincinnati, Ohio 45249

1

Franklin Square
1300 I Street, NW, Suite 400E
Washi ngton, DC 20005

A.

J. WOLF, J.D.
KERSHNER,

J.0.

All parties required to be served have been served.
I further declare under penalty of perjury that the
foregoing is true and correct. This Certificate is
executed on June 25, 2019.

DonnaJ. Wo
Becker Galla gher Legal
lishing, Inc.
8790 Governor's Hill Drive, Suite 102
Cincinnati, OH 45249
(800) 890-5001
Subscribed and sworn to before me by the said
Affiant on the date below designated.

JULIE ANNE KERSHNER
\ otary Public, State of Ohio
\1y Commission Expires
February 21, 2023

